                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: A14020005                                                                     Page 1 of 1



                Our office received an allegation that an NSF proposal 1 contained copied text from one
         source? Our review identified material in the proposal copied from that source.

                We contacted the PI3 regarding the allegation. He said he collaborated with the source's
         author4 on an earlier, declined version ofthe proposal5 and included in the proposal's re-
         submission, on which she was not collaborating, some background text she provided. The PI
         provided documentary evidence supporting his permitted use of the text.

                We will send the PI a Questionable Research Practice letter reminding him of his
         responsibility to acknowledge individuals who author proposals he submits.

                   This case is closed with no further action taken.




NSF OIG Form 2 (11102)
